September 2009
Report No. AUD-09-022


Material Loss Review of Alliance Bank,
Culver City, California




            AUDIT REPORT
                                                      Report No. AUD-09-022                                                               September 2009

                                                      Material Loss Review of Alliance Bank,
                                                      Culver City, California
                                                      Audit Results
   Federal Deposit Insurance Corporation


Why We Did The Audit                                  Causes of Failure and Material Loss - The failure of Alliance and resulting material loss to the DIF
                                                      were due to bank management’s aggressive pursuit of asset growth concentrated in ADC lending
As required by section 38(k) of the                   without adequate risk management controls and sound credit administration practices. As of
Federal Deposit Insurance Act, the Office             December 31, 2007, over 70 percent of the bank’s $903 million loan portfolio was secured by real
of Inspector General (OIG) conducted a                estate. The bank’s ADC portfolio deteriorated quickly when the California residential real estate
material loss review of the failure of                market began to decline in 2007. Total adverse loan classifications increased from $23 million to
Alliance Bank, Culver City, California                $176 million between the May 2007 and June 2008 examinations, with resulting losses causing
(Alliance). On February 6, 2009, the                  examiners to conclude, at the latter examination, that capital was deficient. Further, the bank’s liquidity
State of California, Department of                    became strained, and funding options were limited as the bank had fallen to the Adequately Capitalized
Financial Institutions (DFI), closed                  category for PCA purposes as of June 30, 2008. Bank management had not implemented timely
Alliance and named the FDIC as                        corrective actions in response to examiner recommendations from 2004 to 2008 related to the
receiver. On March 4, 2009, the FDIC                  diversification of the bank’s loan portfolio, credit administration weaknesses, and liquidity
notified the OIG that Alliance’s total                management. As a result of the large operating losses the bank incurred during 2008, the bank’s capital
assets at closing were $1.2 billion, with a           levels steadily declined until the bank was deemed Critically Undercapitalized and closed on
material loss to the Deposit Insurance                February 6, 2009.
Fund (DIF) estimated at $205.9 million.
                                                      Assessment of FDIC Supervision - The FDIC and DFI conducted timely examinations of Alliance and
The audit objectives were to:                         advised management of the need to adequately monitor the higher-risk lending profile of the institution.
(1) determine the causes of the financial             Also, examiners identified the problems, such as high growth and concentrations that ultimately led to
institution’s failure and resulting material          Alliance’s failure. Examiners made recommendations, in some cases, in multiple ROEs, to strengthen
loss to the DIF and (2) evaluate the                  the bank’s risk management controls and credit administration practices and limit its uses of wholesale
FDIC’s supervision of the institution,                funding. Further, the FDIC’s off-site monitoring efforts and coordination with DFI in 2008 resulted in
including implementation of the Prompt                the FDIC joining the DFI’s examination. In addition, the FDIC and DFI worked together in an
Corrective Action (PCA) provisions of                 effective manner during 2008 to downgrade Alliance’s ratings based on its deteriorating financial
section 38.                                           condition, notify the bank of its declining capital, and implement a Cease & Desist Order in October
                                                      2008 to address the bank’s critical asset quality, liquidity, and capital deficiencies and stem the bank’s
Background                                            unsafe and unsound practices. The FDIC appropriately implemented PCA in reclassifying Alliance’s
                                                      capital levels and restricting Alliance’s access to brokered deposits. Although the estimated loss to the
Alliance was insured on May 18, 1980                  DIF represented 17 percent of the bank’s assets, the actions of regulators during 2008 helped avoid
and was headquartered in Culver City,                 greater losses resulting from the bank’s lending practices in the deteriorating Southern California
California. At closing, the bank had four             economy.
branches located in the greater Los
Angeles area of Southern California.                  In retrospect, the May 2007 FDIC examination could have resulted in additional supervisory action to
Alliance provided traditional banking                 address the significant risks posed by Alliance’s aggressive growth concentrated in ADC lending,
activities within its Southern California             reliance on wholesale funding, and weak risk management practices. Although Alliance’s reported
marketplace and focused primarily on                  financial condition was satisfactory at the time of the 2007 examination, the economic decline in its
commercial real estate (CRE),                         marketplace was becoming evident, including an increase in the bank’s adverse loan classifications.
commercial and industrial, and other                  The FDIC participated in the issuance of interagency guidance in December 2006, highlighting that
lending and specialized in acquisition,               institutions with CRE concentrations should focus additional attention on risk management practices
development, and construction (ADC)                   and capital levels and establishing supervisory criteria for elevated supervisory oversight. Alliance’s
loans.                                                concentrations exceeded these supervisory criteria and left the bank unprepared to effectively address
                                                      the risks associated with the economic decline in its market.
The FDIC and DFI alternated safety and
soundness examinations of Alliance,                   This report presents the FDIC OIG’s analysis of Alliance’s failure and the FDIC’s efforts to ensure
conducting a total of four examinations               Alliance’s management operated the bank in a safe and sound manner. We are not making
from March 2004 to May 2007. The                      recommendations. Instead, as major causes, trends, and common characteristics of financial institution
FDIC’s off-site review of Alliance as of              failures are identified in our reviews, we will communicate those to management for its consideration.
December 31, 2007, identified                         As resources allow, we may also conduct more in-depth reviews of specific aspects of the FDIC’s
deteriorating conditions in the bank’s                supervision program and make recommendations, as warranted.
loan portfolio. Based upon the results of
the off-site review, the FDIC joined the
DFI at the June 2008 examination, which
                                                      Management Response
originally had been scheduled as an
                                                      On August 27, 2009, the Director, Division of Supervision and Consumer Protection (DSC), provided a
independent DFI examination.
                                                      written response to the draft report. In its response, DSC summarized the OIG’s conclusions regarding
                                                      the causes of Alliance’s failure and the resulting material loss to the DIF and DSC’s supervisory
                                                      activities related to Alliance. DSC also acknowledged the OIG position that the risk factors identified
                                                      in 2007 could have led to earlier action.



To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                      Page


BACKGROUND                                                                     2
  California Economic Conditions                                               3

CAUSES OF FAILURE AND MATERIAL LOSS                                            5
  Aggressive Growth in ADC Lending                                             5
  Concentrations in CRE and ADC Loans                                          6
  Risk Management/Credit Administration Weaknesses Noted in ADC Loans          8
  Heavy Reliance on Wholesale Funding to Fuel Growth                          10
  Underwriting Weaknesses                                                     11

ASSESSMENT OF FDIC SUPERVISION                                                12
  Examination History                                                         13
  Concentrations and Credit Administration Weaknesses                         15
  Liquidity and Use of Wholesale Funding                                      16
  Implementation of PCA                                                       18
  Conclusion                                                                  19

CORPORATION COMMENTS                                                          20

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                       21
  2. GLOSSARY OF TERMS                                                        24
  3. CORPORATION COMMENTS                                                     25
  4. ACRONYMS IN THE REPORT                                                   26

TABLES
  1. Financial Condition of Alliance                                           3
  2. Indicators of Economic Downturn in California                             4
  3. Alliance’s Cost of Funds                                                 10
  4. Examination History of Alliance                                          13
  5. Examiner Comments and Recommendations Regarding Alliance’s Loan          14
       Concentrations, Credit Administration Weaknesses, and Uses of
       Wholesale Funding
  6. Alliance’s Funding Sources, by Examination Date                          17

FIGURES
  1.   Foreclosures Started for California – Compared to United States         4
  2.   Total Assets                                                            6
  3.   Interest Income as a Percentage of Average Assets – Compared to Peer    7
  4.   ADC Loans as a Percentage of Average Loans – Compared to Peer           8
  5.   Net Charge-offs on Loans and Leases                                    10
  6.   Net Non-Core Funding Dependence                                        17
Federal Deposit Insurance Corporation                                                                   Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                    Office of Inspector General


DATE:                                     September 1, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Alliance Bank, Culver City, California
                                          (Report No. AUD-09-022)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Alliance Bank
(Alliance). On February 6, 2009, the California Department of Financial Institutions (DFI)
closed the institution and named the FDIC as receiver. On March 4, 2009, the FDIC notified the
OIG that Alliance’s total assets at closing were $1.2 billion with an estimated loss to the Deposit
Insurance Fund (DIF) estimated at $205.9 million.

When the DIF incurs a material loss with respect to an insured depository institution for which
the FDIC is appointed receiver, the FDI Act states that the Inspector General of the appropriate
federal banking agency shall make a written report to that agency which reviews the agency’s
supervision of the institution, including the agency’s implementation of FDI Act section 38,
Prompt Corrective Action (PCA); ascertains why the institution’s problems resulted in a material
loss to the DIF; and makes recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the institution,
including implementation of the PCA provisions of section 38. Appendix 1 contains details on
our objectives, scope, and methodology, and Appendix 2 contains a glossary of terms.
Acronyms used in the report are listed in Appendix 4.




1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions, protects
consumers’ rights, and promotes community investment initiatives by the institutions. The FDIC’s Division of
Supervision and Consumer Protection (DSC) (1) performs examinations of FDIC-supervised institutions to assess
their overall financial condition; management policies and practices, including internal control systems; and
compliance with applicable laws and regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of Alliance’s failure and the FDIC’s efforts to
    ensure Alliance’s management operated the bank in a safe and sound manner. We are not
    making recommendations. Instead, as major causes, trends, and common characteristics of
    financial institution failures are identified in our reviews, we will communicate those to
    management for its consideration. As resources allow, we may also conduct more in-depth
    reviews of specific aspects of the FDIC’s supervision program and make recommendations, as
    warranted.


BACKGROUND

    Alliance was a state-chartered nonmember institution that became insured on May 18, 1980.
    Alliance, which was headquartered in Culver City, California:

        • had one branch in Irvine, one branch in Woodland Hills, one branch in Burbank, and one
           branch in West Los Angeles;

        • provided traditional banking activities within its Southern California marketplace and
           focused primarily on commercial real estate (CRE), commercial and industrial, and other
           lending; and

        • specialized in acquisition, development, and construction (ADC) loans.

    Alliance was a wholly-owned subsidiary of Alliance Bancshares California, a one-bank holding
    company created in 2000. Alliance’s main market area were the Los Angeles and Orange
    counties of California, with more than 82 percent of the bank’s deposits concentrated in Los
    Angeles County. The Chairman of the Board (Chairman), along with his father and the family
    trust, collectively controlled 18 percent of the holding company stock.

    In the late 1990s, Alliance embarked on an aggressive growth strategy centered in ADC lending
    in its Southern California market. Management slowed asset growth briefly after the FDIC’s
    2000 examination; however, Alliance’s asset growth increased by an average of 40 percent
    annually from 2003 to 2008. At the June 2008 examination, Alliance’s CAMELS composite
    rating was downgraded to 5,3 indicating extremely unsafe and unsound practices or conditions;
    critically deficient performance, often with inadequate risk management practices; and great
    supervisory concern. Institutions in this category pose a significant risk to the DIF and have a
    high probability of failure. Details on Alliance’s financial condition, as of December 2008, and
    for the 5 preceding calendar years follow in Table 1.




    3
     Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to
    evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset
    quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each
    component, and an overall composite score, is assigned a rating of 1 through 5, with 1 having the least regulatory
    concern and 5 having the greatest concern.


                                                              2
Table 1: Financial Condition of Alliance
Uniform Bank Performance Report           Dec-08     Dec-07      Dec-06       Dec-05        Dec-04       Dec-03
Total Assets ($000s)                   $1,113,361 $1,065,009    $874,621     $674,286     $409,443      $281,940
Total Deposits ($000s)                  $951,106   $860,500     $717,038     $561,454     $305,089      $225,027
Total Loans ($000s)                     $895,889   $902,936     $709,690     $551,477     $305,345      $203,575
 Net Loan Growth Rate                     -2.19%     26.72%      28.43%       80.68%       50.53%        35.00%
Net Income (Loss) ($000s)               ($65,367)    $5,364      $9,363        $6,834       $4,168       $2,421
Loan Mix (% of Avg. Gross Loans):
Total Real Estate Secured Loans          69.17%     71.42%       69.01%       69.24%       67.81%        67.10%
  Construction and Development           23.93%     34.37%       36.75%       31.91%       28.10%        26.24%
  CRE – Nonfarm/nonresidential           35.46%     29.00%       24.85%       28.05%       29.83%        31.18%
  1-4 Family Residential – excluding
                                          3.81%      2.52%        3.00%        2.57%        2.06%         1.79%
  Home Equity Lines of Credit
Funding
Net Loans/Deposits                       91.29%     103.16%      97.70%      102.63%       98.95%        89.12%
Core Deposits/Avg. Assets                63.75%      66.05%      52.52%       60.75%       66.46%        58.12%
Brokered/Avg. Assets                     23.48%      17.65%      18.28%       12.91%        7.76%        11.36%
Large Time/Avg. Assets                    17.04%     15.91%      28.10%       19.56%       12.34%        19.77%
Borrowings/Avg. Assets                     7.70%      6.33%       5.07%        8.26%       11.39%        12.32%
Net Non-Core Funding Dependency
                                         71.54%     23.96%       34.98%       37.29%       28.36%        19.79%
Ratio
Examination Information                06/30/2008 05/07/2007 03/27/2006 04/11/2005 03/29/2004           04/07/2003
Component/Composite Ratings             455554/5   222222/2     222232/2     222232/2     222223/2       222222/2
Adverse Classifications Coverage Ratio   202.60%     25.95%      24.78%        3.44%        9.68%         22.16%
       Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for Alliance.



       DSC’s Los Angeles West Field Office and DFI alternated safety and soundness examinations of
       Alliance, conducting a total of four examinations from March 2004 through May 2007. The
       FDIC’s off-site review of Alliance as of December 31, 2007, identified deteriorating conditions
       in the bank’s loan portfolio. Based upon the results of the off-site review, the FDIC joined DFI
       at the June 2008 examination, which had been scheduled as an independent DFI examination.


California Economic Conditions

       The FDIC’s Division of Insurance and Research (DIR) publishes local economic data for the
       FDIC’s Regional Offices. In the Winter 2006 issue of FDIC Outlook, regional analysts
       identified trends that were expected to affect banking across the FDIC’s regions during 2007.
       According to these analysts, the construction sector drove much of the San Francisco Region’s4
       economic expansion and contributed to high and increasing concentrations of CRE and
       construction loans. ADC loans, a component of CRE lending, was the most rapidly growing
       portfolio sector reported by banks in the San Francisco Region. The region’s median ADC
       Loans to Tier 1 Capital Ratio was more than twice the average for the rest of the country as of


       4
           The FDIC’s San Francisco Region covers all of California and 10 other states.


                                                                   3
mid-year 2006. Analysts indicated that a slowdown in the critical construction sector could
jeopardize the sustainability of a bank’s strong performance.

Data indicated that California was one of the states with the most acute downturn in housing.
As home prices slumped, foreclosure activity rose at a startling pace. As noted in Table 2 below,
certain indicators showed that the economic conditions in California were slowing considerably
during 2006 through 2008.

Table 2: Indicators of Economic Downturn in California
                                                2006                                               2007           2008
Residential Real Estate Activity
Total Housing Permits                         155,419                                             104,788       61,222
   Percent of Change from 1 Year Earlier       -23.1%                                             -32.6%        -41.6%
Mortgage Delinquencies
Total Past Due (for all loan types)             3.3%                                               5.4%           9.1%
Foreclosures Started (for all loan types)       1.1%                                               3.3%           6.3%
Source: FDIC’s Division of Insurance and Research (DIR).



Further, as indicated in Figure 1, below, California’s rapid increase in foreclosure activity was
higher and grew faster than the national average from 2007 to 2008.



                                           Figure 1:  Foreclosures Started for California ‐ Compared to 
                                                                  United States
                                       7.00%
       Percent of All Mortgage‐Type 




                                                                                              6.30%
                                       6.00%
                                       5.00%
                                                                                              4.24%
                   Loans 




                                       4.00%
                                                                                   3.26%                    United States
                                       3.00%                                       2.84%
                                                                                                            California
                                       2.00%                    1.86%
                                                    1.63%
                                       1.00%                    1.09%
                                                    0.59%
                                       0.00%
                                                 2005        2006              2007        2008
                                                                    Year End
                             Source: FDIC’s DIR.




Examiners concluded in the 2008 ROE that Alliance’s unsatisfactory financial condition was the
result of significant exposure to distressed Southern California real estate markets. Specifically,
Alliance had significant risk exposure from ADC lending activities in six Southern California
counties.


                                                                               4
CAUSES OF FAILURE AND MATERIAL LOSS

      The failure of Alliance and resulting material loss to the DIF were due to bank management’s
      aggressive pursuit of asset growth concentrated in ADC lending without adequate risk
      management controls and sound credit administration practices. As of December 31, 2007, over
      70 percent of the bank’s $903 million loan portfolio was secured by real estate. The bank’s ADC
      portfolio deteriorated quickly when the California residential real estate market began to decline
      in 2007. Total adverse loan classifications increased from $23 million to $176 million between
      the May 2007 and June 2008 examinations, with resulting losses causing examiners to conclude,
      at the latter examination, that capital was deficient. Further, the bank’s liquidity became
      strained, and funding options were limited as the bank had fallen to the Adequately Capitalized
      category for PCA purposes as of June 30, 2008. Bank management had not implemented timely
      corrective actions in response to examiner recommendations from 2004 to 2008 related to the
      diversification of the bank’s loan portfolio, credit administration weaknesses, and liquidity
      management. As a result of the large operating losses the bank incurred during 2008, the bank’s
      capital levels steadily declined until the bank was deemed Critically Undercapitalized and closed
      on February 6, 2009.


Aggressive Growth in ADC Lending

      From the bank’s inception in 1980 until 1996, total assets averaged $44 million. Beginning in
      1997, Alliance management embarked on a strategy of aggressive growth, comprised primarily
      of ADC loans. Asset growth was initially funded through core deposits; however, in 2002, the
      bank began to rely more heavily on wholesale funding sources. From December 31, 2003 to
      December 31, 2007, the bank’s total assets grew from about $282 million to nearly $1.1 billion.
      Management achieved this asset growth primarily through originations of CRE loans, and
      particularly ADC loans. The bank’s growth was heavily funded with wholesale funding sources,
      which equaled 45 percent of total deposits as March 31, 2007. After the 2000 examination and
      due to regulators’ concerns about the bank’s high concentrations in ADC loans (totaling 644
      percent of Tier 1 Capital), a Memorandum of Understanding (MOU) was put in place from June
      2000 until August 2001. The MOU, among other things, required a reduction in the ADC
      concentration. During the time the MOU was in force, management slowed asset growth and
      lowered the concentration in ADC loans to 344 percent of Tier 1 Capital. However, asset growth
      accelerated to over 28 percent between the 2001 and the April 2002 examination after the MOU
      had terminated. Total assets increased by 40 percent between the 2003 and 2004 examinations
      and again by 45 percent between the 2004 and 2005 examinations. Total assets increased by 65
      percent between the 2005 and 2006 examinations and again by 29 percent between the 2006 and
      2007 examinations. The increase in total assets is shown in Figure 2, which follows.




                                                       5
                                       Figure 2: Total Assets
                                        (Dollars in Thousands)

        $1,200,000
        $1,000,000
          $800,000
          $600,000
          $400,000
          $200,000
                $0
                       4/7/2003      3/29/2004   4/11/2005       3/27/2006   5/7/2007   6/30/2008
                                                      Exam Date

        Source: ROEs for Alliance.



Concentrations in CRE and ADC Loans

      Alliance’s increased origination of ADC loans led to its rapid growth in assets. Examiners
      reported that these loans included speculative real estate development lending, including lending
      on an unsecured basis in amounts that appeared to exceed the bank’s lending limits to individual
      borrowers. Interagency guidance on CRE lending entitled, Guidance on Concentrations in
      Commercial Real Estate Lending, Sound Risk Management Practices, issued December 12, 2006
      (CRE Guidance), states that CRE lending, in general, and construction lending, in particular,
      may require a greater level of supervisory oversight. Specifically, the guidance states that an
      institution may be identified for further supervisory analysis of the level and nature of risk if it
      has experienced rapid growth in CRE lending, has notable exposure to a specific type of CRE, or
      is approaching or exceeds the following supervisory criteria:

             • total reported loans for construction, land development, and other land represent 100
                percent or more of the institution’s total capital; or

             • total CRE loans represent 300 percent or more of the institution’s total capital, and the
                outstanding balance of the institution’s CRE loan portfolio has increased by 50 percent
                or more during the prior 36 months.

      As of the May 2007 examination, CRE and ADC loans totaled about 571 percent and 311
      percent of Total Risk-Based Capital, respectively, which exceeded the supervisory criteria and
      warranted elevated oversight. Furthermore, from December 2003 to December 2007, Alliance’s
      loan portfolio was concentrated in ADC loans at levels significantly above its peer banks. This
      strategy appeared to work well prior to 2007 when the Southern California real estate market was
      accelerating. As shown in Figure 3, which follows, Alliance’s interest income as a percentage of
      average assets exceeded its peer group; however, the significant concentrations in ADC loans
      made the bank vulnerable to changes in the real estate market.


                                                             6
                   Figure 3: Interest Income as a Percentage of Average
                                 Assets - Compared to Peer

              9%                                8.41%              8.20%
              8%
                                   7.08%                 6.63%          6.73%
              7%
                   5.69%                5.84%                                    5.93% 5.75%
              6%
                       5.25%
      Ratio




              5%                                                                               Alliance
              4%                                                                               Peer
              3%
              2%
              1%
              0%
                    Dec-04         Dec-05          Dec-06          Dec-07             Dec-08
                                            Period End Date

      Source: UBPRs for Alliance.



Examiners concluded that Alliance’s asset quality was critically deficient during the joint
FDIC/ DFI June 2008 examination, primarily due to the high level of loan losses and volume of
classifications. The deterioration in the Southern California residential real estate market,
coupled with the bank’s high concentrations of ADC lending in this market, produced a
significant increase in classifications. Total classifications had risen from $23 million at the
May 2007 examination to $175.8 million at the June 2008 examination. Further, another
$24.6 million in loan losses was posted with the bank’s June 30, 2008 Report of Condition and
Income (Call Report). Examiners determined that the problem loans were generally large dollar,
speculative5 residential construction and land loans. Examiners found that although these loans
were secured by real estate, in nearly all cases, the principals or guarantors lacked the capacity to
carry the notes. A significant volume of land or lot development loans were on hold because it
was not feasible to build out due to the decreased demand from buyers. Examiners determined
that the excessive size of the residential real estate portfolio was the primary cause of the
critically deficient asset quality as over 70 percent of the residential construction and land loans
outstanding at the June 2008 examination had been adversely classified. Alliance’s ADC loans,
as a percentage of average loans, as compared to its peer banks is shown in Figure 4, which
follows.




5
    Construction is to be completed, and the project is not pre-sold or pre-leased.


                                                               7
                        Figure 4: ADC Loans as a Percentage of Average Loans -
                                          Compared to Peer

                 40%                                     36.75%
                                                                      34.37%
                 35%                            31.91%
                 30%   26.24%    28.10%
                                                                                  23.93%
                 25%                                                        18.52%
         Ratio




                                                                                                 Alliance
                 20%                                                                    18.03%
                                                   12.72%       14.96%                           Peer
                 15%                    9.98%
                 10%        8.67%
                  5%
                  0%
                        Dec-03       Dec-04     Dec-05       Dec-06      Dec-07      Dec-08
                                                 Period End Date

       Source: UBPRs for Alliance.



      According to the CRE Guidance, financial institutions with high concentrations of CRE loans
      require strong concentration risk management practices. Although Alliance’s board of directors
      (BOD) and management established limits for concentrations, management did not always
      identify, measure, monitor, and report risk exposures. As discussed below, examiners expressed
      their concerns to Alliance’s BOD and management regarding the bank’s risk management, weak
      credit administration practices, and concentrations in ADC loans that contributed to the bank’s
      rapid decline.


Risk Management/Credit Administration Weaknesses Noted in ADC Loans

      Examiner concerns with Alliance’s high concentration in ADC lending were reported in the 2004
      through 2008 ROEs. In addition, although Alliance was rated a 2 in both management and asset
      quality until 2008, each of these examinations reported weaknesses and made recommendations
      regarding the bank’s risk management and/or credit administration practices. After the bank’s
      loan portfolio began suffering significant losses in 2008, examiners downgraded both
      management and asset quality to 5 and implemented a Cease and Desist Order (C&D) requiring
      the bank to diversify its loan portfolio.

      The 2004 DFI examination noted that concentrations persisted in the real estate loan portfolio,
      and management was advised to implement more stringent credit administration and
      underwriting processes. Specifically, credit administration and underwriting weaknesses were
      noted in one loan relationship where modifications of the loan terms had not been approved by
      the Loan Committee for over a month after the loan advancement, and the purpose of the
      advance was inconsistent with the purpose contained in the loan agreement. Also, quarterly
      status reports, current rent rolls, and operating statements were not being obtained and analyzed


                                                         8
on a timely basis as required by the loan agreement. Further, there was no documentation
indicating that current financial statements of the borrower and guarantor had been analyzed.
Examiners also noted that although the external loan review appeared adequate, expansion of the
loan review comments to include a more detailed analysis of the borrower’s current financial
information was needed.

The 2005 FDIC examination made recommendations for improvements in the reporting and
monitoring of concentrations of credit in CRE and speculative residential construction loans. For
example, examiners recommended that more comprehensive credit presentations to the loan
committee were needed and that policies, procedures, and methodologies regarding
concentrations of credit oversight needed to be strengthened, particularly in consideration of the
large volume of higher-risk CRE and construction-related credits in the loan portfolio.
Furthermore, examiners cited an apparent contravention of Appendix A to Part 365 of the FDIC
Rules and Regulations – Interagency Guidelines for Real Estate Lending Policies, due to
inadequate market analysis. Specifically, management’s market analysis did not include several
factors related to how market shifts and changes in concentrations may impact the quality of the
loan portfolio and adequacy of the allowance for loan and lease losses (ALLL).

The 2006 DFI examination continued to report concerns regarding Alliance’s loan
concentrations. Although management had enhanced reporting and monitoring by providing
extensive reports to the BOD on a monthly basis, management was not accurately reporting loan
concentrations or the total debt of the bank’s largest customer. Also, several loans were
identified during the examination that did not have current financial statements or tax returns,
standby letters of credit had not been certified, and the appraisal review function was conducted
by the individual loan officers rather than an independent reviewer.

The 2007 FDIC examination more favorably reported on the bank’s concentrations, stating that
the loan policy adequately covered recommended underwriting and administrative standards,
which examiners concluded were sound; however, examiners recommended that the policy
include a contingency plan to reduce or mitigate concentrations in the event of adverse CRE
market conditions. The examiners further stated that these industry concentrations added risk
and were actively monitored by management.

By the 2008 examination, the Southern California real estate market had severely deteriorated,
and Alliance’s concentrations in CRE and ADC lending had severely eroded the bank’s financial
condition. Examiners concluded that shortcomings in loan collection and asset disposition
practices had caused the protracted sell-out and repayment expected on many of the problem
construction loans. Examiners found multiple loan renewals or extensions without principal
reduction, extended length of delinquency on some past-due loans, delayed foreclosure
proceedings, and no other real estate owned as of June 30, 2008. Weaknesses were also reported
in the loan review and grading program. Examiners found that management had only recently
downgraded many classified loans prior to the examination. Furthermore, examiners concluded
that the bank had employed inadequate risk management practices and that loan concentrations
had been increasingly funded by brokered deposits and other non-core funding sources.
Alliance’s net loan charge-offs on loans and leases are shown, by loan type, as follows in
Figure 5.


                                                 9
                                 Figure 5: Net Charge-offs on Loans and Leases



                             $10,366          $1,638


                                                                                ADC Loans
                                                                                1-4 Family Residential
                                                                                Commercial & Industrial Loans
                                                                                All other Loans


                                                                      $60,070
                       $31,710



        Source: UBPRs at year-end 2004 through 2008 for Alliance.



Heavy Reliance on Wholesale Funding to Fuel Growth

      Alliance increased its reliance on brokered deposits and Federal Home Loan Bank (FHLB)
      borrowings to meet loan portfolio growth demands. Brokered deposits and FHLB borrowings
      comprised 29 percent and 21 percent of the bank’s total liabilities at year-end 2004 and 2003,
      respectively. Examiners downgraded liquidity to less than satisfactory in 2005 and 2006 due to
      the bank’s continued reliance on volatile funding sources, which consistently exceeded its peer
      group average for such funding sources and exceeded the bank’s policy limit of 20 percent. Net
      non-core funding continued to rise. Specifically, the non-core dependency ratio as of
      December 31, 2005 and March 31, 2007 was 36.9 percent and 40 percent, respectively. During
      the 2007 examination, examiners (1) concluded that although wholesale funding sources were
      used extensively, the satisfactory condition and earnings performance levels lent support for the
      heavy reliance on wholesale funding and (2) therefore raised the liquidity rating to 2. Alliance’s
      cost of funds was progressively above its peer banks as shown in Table 3, below.

              Table 3: Alliance’s Cost of Funds
                                                          Bank’s        Peer
                                 Interest Expense as
                                                           Peer       (State of
                 Year-End          a Percentage of
                                                          Group      California)
                                   Average Assets
                                                           (%)          (%)
                12-31-2002             2.43                2.16         1.50
                12-31-2003             1.76                1.63         1.04
                12-31-2004             1.36                1.38         0.94
                12-31-2005             2.16                1.89         1.47
                12-31-2006             3.23                2.70         2.26
                12-31-2007             3.56                3.07         2.64
                12-31-2008             3.17                2.31         1.99
              Source: UBPRs for Alliance.




                                                            10
      However, examiners recommended that a formal contingency plan be established to identify
      specific steps to be taken in the event of a liquidity crisis, including scenarios such as legal limits
      triggered by PCA standards. As of June 30, 2008, the bank’s non-core funding dependence
      escalated to 50.2 percent, and by July 31, 2008, Alliance’s brokered deposits made up 36 percent
      of total deposits. However, the bank was subsequently prohibited, under section 29 of the FDI
      Act, from accepting, renewing, or rolling over brokered deposits without an FDIC waiver,
      because the bank was deemed Adequately Capitalized under PCA provisions of the FDI Act.

      Using brokered deposits may have been a reasonable strategy had Alliance maintained
      satisfactory asset quality; however, the non-core funding dependence resulted in a liquidity crisis
      during 2008 when the bank’s loan portfolio deteriorated, which ultimately led to Alliance’s
      failure.


Underwriting Weaknesses

      Although examiners generally concluded that Alliance’s loan underwriting practices were sound,
      weaknesses were noted during examinations conducted from 2004 to 2008. The 2004
      examination reported underwriting weaknesses in one loan relationship as follows.

      •   Modification of the terms of the loan for $300,000 advanced on March 3, 2004 for the
          purchase of a single-family residence was not approved by the bank’s Loan Committee until
          April 14, 2004. The purpose of the advance was inconsistent with the original purpose
          contained in the loan agreement. The Chief Credit Officer approved the advance prior to
          recording the second Deed of Trust, which remained unrecorded as of April 22, 2004. The
          advance was made to a personal checking account.

      •   Quarterly status reports, current rent rolls, and operating statements were not obtained and
          analyzed on a timely basis as required by the loan agreement.

      •   Financial statements contained various errors, and there was no documentation indicating
          that the current financial statements of the borrowers and guarantor were analyzed.

      During the 2005 examination, examiners made recommendations for more comprehensive credit
      presentations to the Loan Committee. Furthermore, examiners cited an apparent contravention
      of Appendix A to Part 365 of the FDIC Rules and Regulations – Interagency Guidelines for Real
      Estate Lending Policies, due to inadequate market analysis. During the 2006 examination, the
      largest substandard loan classifications were downgraded primarily due to weak underwriting
      practices. The 2007 examination found Alliance’s underwriting policies to be sound and did not
      report any underwriting weaknesses, and the 2008 examination reported weaknesses in
      underwriting practices related to one insider loan that had not been found in other loans.

      In addition to examiner reviews of Alliance’s underwriting practices, Alliance’s Audit
      Committee engaged outside firms to conduct loan reviews in August 2006 and April 2008. The
      2006 loan review recommended that the bank needed to place more emphasis on quality and
      timely financial data in assessing the credit quality of borrowers. Also, the reports indicated that


                                                          11
    the bank was relying on the sale of real estate collateral as the primary source of repayment for
    real estate loans.

    DSC’s Risk Management Manual of Examination Policies (Examination Manual) stresses that
    prudent lending practices should include, among other things, that effective management of risk
    is dependent on the quality of analysis at origination as well as after the loan is advanced.
    Changes in the condition or the advancement of additional funds should be documented in credit
    memorandums, and credit memorandums should be updated at least annually. Loan reviews
    conducted from 2004 to 2008 indicated that these practices were not always followed by
    Alliance.


ASSESSMENT OF FDIC SUPERVISION

    The FDIC and DFI conducted timely examinations of Alliance and advised management of the
    need to adequately monitor the higher-risk lending profile of the institution. Also, examiners
    identified the problems, such as high growth and concentrations that ultimately led to Alliance’s
    failure. Examiners made recommendations, in some cases, in multiple ROEs, to strengthen the
    bank’s risk management controls and credit administration practices and limit its use of
    wholesale funding. Further, the FDIC’s off-site monitoring efforts and coordination with DFI in
    2008 resulted in the FDIC joining the DFI examination. In addition, the FDIC and DFI worked
    together in an effective manner during 2008 to downgrade Alliance’s ratings based on its
    deteriorating financial condition, notify the bank of its declining capital, and implement a C&D
    in October 2008 to address the bank’s critical asset quality, liquidity, and capital deficiencies and
    stem the bank’s unsafe and unsound practices. The FDIC appropriately implemented PCA in
    reclassifying Alliance’s capital levels and restricting Alliance’s access to brokered deposits.
    Although the estimated loss to the DIF represented 17 percent of the bank’s assets, the actions of
    regulators during 2008 helped avoid greater losses resulting from the bank’s lending practices in
    the deteriorating Southern California economy.

    In retrospect, the May 2007 FDIC examination could have resulted in additional supervisory
    action to address the significant risks posed by Alliance’s aggressive growth concentrated in
    ADC lending, reliance on wholesale funding, and weak risk management practices. Although
    Alliance’s reported financial condition was satisfactory at the time of the 2007 examination, the
    economic decline in its marketplace was becoming evident, including an increase in the bank’s
    adverse loan classifications. Also, the 2007 ROE noted that Alliance’s Tier 1 Leverage Capital
    ratio decreased slightly from the prior year, but remained satisfactory at 9.35 percent, with the
    Total Risk-Based Capital at 11.67 percent. Alliance went from a well-rated institution at the
    May 2007 examination to a 5-rated institution at the June 2008 examination. The FDIC
    participated in the issuance of interagency guidance in December 2006, highlighting that
    institutions with CRE concentrations should focus additional attention on risk management
    practices and capital levels and establishing supervisory criteria for elevated supervisory
    oversight. Alliance’s concentrations exceeded these supervisory criteria and left the bank
    unprepared to effectively address the risks associated with the economic decline in its market.




                                                       12
Examination History

      Since it was chartered in 1980, Alliance was examined on an annual basis by the FDIC and DFI,
      either independently or jointly. The FDIC’s Los Angeles West Field Office and the DFI
      conducted safety and soundness examinations of Alliance from 2000 to 2008 as shown in
      Table 4.

             Table 4: Examination History of Alliance
              Examination Date    Agency            Supervisory Ratings
                  06/30/2008       Joint                 455554/5
                  05/07/2007       FDIC                  222222/2
                  03/27/2006        DFI                  222232/2
                  04/11/2005       FDIC                  222132/2
                  03/29/2004        DFI                  222223/2
                  04/07/2003       FDIC                  222222/2
                  04/29/2002       Joint                 223332/2
                  01/08/2001       Joint                 222232/2
                  02/07/2000       FDIC                  333222/3
            Source: ROEs for Alliance.



      As discussed previously, Alliance began to rapidly grow during 1999 by originating a large
      volume of construction loans. During the 2000 FDIC examination, examiners found that
      Alliance’s overall risk profile had increased significantly since the previous FDIC examination.
      According to the ROE, substantial growth in construction lending resulted in a concentration in
      such loans representing approximately 644 percent of Tier 1 Capital, which increased the
      inherent risk within the loan portfolio to an imprudent level and caused the bank to be highly
      sensitive to market risks. Management was considered less than satisfactory because of its
      willingness to increase the risk profile of the institution to an unacceptable level. Although
      earnings were above average, they reflected the high-risk practice of over-concentrating lending
      in ADC projects, which could be detrimentally affected with the onset of adverse economic
      conditions. Liquidity had become marginal because management had solicited higher-cost
      deposits from potentially volatile funding sources to fund loan growth. As a result, the FDIC
      downgraded several of the bank’s component ratings and the composite rating to 3 from the prior
      examination in 1999 when Alliance was 2-rated. In addition, an MOU was put in place with
      management in June 2000 to correct the less-than-satisfactory conditions. Among other things,
      the MOU required the bank to systematically reduce the amount of loans or other extensions of
      credit in real estate development and construction. As of the January 2001 examination,
      examiners reported that the bank had made significant progress in reducing the excessive
      concentration of construction/land development loans after the 2000 examination.

      However, examinations beginning in 2004 began reporting concerns again regarding the bank’s
      concentration levels in construction and land development loans and credit administration
      weaknesses. The 2005 examination noted the bank’s dependence on net non-core funding to



                                                      13
meet loan portfolio growth demands. Table 5, which follows, summarizes examiners’ comments
and recommendations related to these areas from 2004 to 2008.

Table 5: Examiner Comments and Recommendations Regarding Alliance’s Loan
Concentrations, Credit Administration Weaknesses, and Uses of Wholesale Funding
                                                                                Examination Dates
                      Examiner Comments
                                                                        Mar    April  Mar    May    June
                                                                        2004   2005   2006   2007   2008
ADC Loan Concentrations
   • Concentrations persist in the real estate loan portfolio            9      9      9      9      9
Credit Administration Weaknesses
   • Credit administration practices and risk identification or
     underwriting need improvement                                       9      9      9             9
   • Underwriting weaknesses noted in sampled loans                      9             9             9
   • Insufficient factors used in analysis of speculative residential           9
     construction loans
   • The market analysis does not include several factors identified            9
     in Appendix A to Part 365 (apparent contravention of policy)
   • Weak documentation of discussions regarding market                         9
     analyses and concentration of credit in BOD minutes
   • Various recommendations for management to improve its                      9
     analysis of speculative residential construction loans
   • Various recommendations regarding enhancements to the                      9
     bank’s loan policy
   • Various recommendations to improve the concentration                       9      9
     analysis, and reporting and monitoring of loan concentrations
     and presentations to the Loan Committee
   • Recommendation that management should identify all                                9
     relationships outstanding to a borrower to prevent the bank
     from exceeding its lending limits
   • Recommendation that the loan policy should be revised to                                 9
     include a contingency plan to reduce or mitigate
     concentrations in the event of adverse CRE market conditions
   • Management needs to adequately document the reason(s) a                                         9
     particular loan will be considered “impaired”
   • Shortcomings in loan collection and asset disposition                                           9
     practices
   • Controls over the CRE and construction loan concentration                                       9
     risks proved to be clearly inadequate
   • Weakness was noted in the loan review and grading program                                       9
   • The BOD must ensure that sufficient resources are available                                     9
     to accurately identify problem assets and to do so in a timely
     manner
   • Management needs to ensure there is timely identification and                                   9
     grading of problem loans




                                                          14
                                                                                     Examination Dates
                             Examiner Comments
                                                                             Mar    April  Mar    May    June
                                                                             2004   2005   2006   2007   2008
      Uses of Wholesale Funding
          • Increased reliance on costlier funding sources such as
            brokered deposits and FHLB borrowings to meet loan                       9      9      9      9
            portfolio growth demands
          • Non-core funding dependence ratio is much higher when
            recalculated to include the inherently volatile funds from the           9             9      9
            large deposit relationships including Internet deposits
          • Several customers control a large volume of deposits                            9      9
          • Certain liquidity ratios are not being correctly calculated or
            reported                                                                               9
          • Lack of adequate liquidity contingency plan                                            9      9
          • Funding sources are rapidly diminishing                                                       9
          • Recommendation to reassess targeted liquidity ratios                            9
          • Recommendation to review and revise liquidity policy
            guidelines to ensure consistency                                                9
          • Recommendation to establish a detailed formal liquidity                                9
            contingency plan
          • Recommendation to develop and implement forward looking
            measures to comprehensively understand the liquidity risk                                     9
            profile
      Source: ROEs for Alliance.



Concentrations and Credit Administration Weaknesses

      Concentrations. As shown in Table 5, beginning in 2004, and at each subsequent examination,
      examiners identified that Alliance’s loan portfolio was (1) concentrated in ADC lending and
      reported to management that ADC concentrations made the bank vulnerable to a downturn in the
      real estate market and (2) warranted management’s continued monitoring. However, examiners
      did not downgrade the institution’s asset quality or management ratings or initiate other formal
      or corrective enforcement action until after the June 2008 examination, such as the MOU
      implemented after the 2000 examination. Based on our review of examinations from 2004 to
      2008 and discussions with examiners, action was not taken because of the apparent strong
      protection of collateral; positive real estate market conditions; management involvement; capital
      levels; and an effective program in place to measure, monitor, and control the inherent risks.
      Examiners also noted that the level of the construction loan portfolio was not as severe from
      2004 to 2008 as it was during the 2000 examination when total construction loans outstanding
      represented 644 percent of Tier 1 Capital. The 2007 ROE reported that Alliance’s BOD had
      voted to reduce the bank’s ADC concentrations to 250 percent of Tier 1 Capital. However,
      during the 2007 examination, CRE and ADC loans represented 571 percent and 311 percent of
      Total Risk-Based Capital, respectively, exceeding supervisory criteria in interagency guidance
      and warranting additional institution and supervisory attention. The 2007 examination noted that
      the volume of adversely classified loans had increased from $16.8 million at the 2006
      examination to $22.9 million as of March 31, 2007.

      However, the 2008 examination report that downgraded Alliance’s asset quality to critically
      deficient stated that: “While the identification, measurement, and monitoring of CRE and


                                                                 15
      construction loan concentrations is comprehensive, controls over these concentration risks, as
      evidenced in high board established policy limits, proved to be clearly inadequate.” Examiners
      told us that although management was slow to react to the declining real estate market and take
      actions necessary to limit the bank’s loan losses, examiners found the bank’s management, over
      the years, to be receptive to examiners’ recommendations, properly classifying problem loans
      and monitoring the loan concentrations. Examiners also noted that the bank generally
      maintained an adequate ALLL, although during the 2008 examination, examiners found that the
      ALLL was underfunded by $3.8 million. The C&D, stipulated to by Alliance in October 2008,
      contained three requirements for the bank related to asset quality: (1) develop, revise, adopt, and
      implement a comprehensive policy for determining the adequacy of the ALLL; (2) adopt and
      implement a plan for reduction and collection of classified assets and delinquent loans; and
      (3) develop, revise, adopt, and implement a written plan requiring the prudent diversification of
      the loan portfolios.

      Credit Administration Weaknesses. Examiners also consistently reported credit administration
      weaknesses during each examination. As shown in Table 5, these were most pronounced during
      the 2005, 2006, and 2008 examinations and related to insufficient market analysis for speculative
      loans, risk identification, reporting concentrations, loan policies, loan collection, and asset
      disposition practices. From 2005 to 2007, reported weaknesses declined with each examination.
      The only credit administration weakness reported in the 2007 ROE was that the bank’s loan
      policy did not contain a contingency plan to reduce or mitigate concentrations in the event of
      adverse CRE market conditions. Examiners recommended that the loan policy should contain a
      contingency plan to include selling or securitizing CRE loans and that management should
      periodically assess the marketability of the portfolio. Otherwise, the 2007 ROE reported that the
      loan policy adequately covered recommended underwriting and administration standards, which
      examiners concluded were sound. In response to the 2007 ROE, Alliance sold a group of CRE
      loans, opened a new branch to increase core deposits, and updated loan and liquidity funds
      management policies.


Liquidity and Use of Wholesale Funding

      Examiners found that Alliance relied on brokered deposits and FHLB borrowings and had a
      high-risk wholesale funding strategy as shown in Table 6, which follows. This resulted in the
      bank’s liquidity rating being downgraded during the 2005 and 2006 examinations. Examiners
      also identified inadequate controls over the bank’s high-risk wholesale funding strategy that
      included inadequate monitoring and reporting and the lack of an adequate contingency liquidity
      plan (CLP). The resulting dependence on brokered deposits and FHLB borrowings negatively
      affected and further deteriorated the bank’s financial condition.




                                                        16
Table 6: Alliance’s Funding Sources, by Examination Date
                                                                       Year-End Date
            Non-Core Funding Sources                                  (Dollars in $000)
                                               Dec-04          Dec-05      Dec-06       Dec-07    Dec-08
 Brokered deposits                              $40,592        $125,847 $162,449 $197,159         $312,426
 FHLB Borrowings less than 1 year               $52,000         $15,000           $0    $40,000   $100,000
 FHLB Borrowings greater than 1 year            $15,000         $20,000    $50,000      $40,000    $10,000
 Certificates of Deposits over $100,000         $53,518        $185,098 $253,420 $157,183         $280,352
 Total                                         $161,110        $345,945 $465,869 $434,342         $702,778
Source: UBPRs for Alliance.

A key metric of the risks related to a bank’s liquidity management is the net non-core funding
dependence ratio. This ratio is an indication of the degree to which the bank relies on non-core
volatile liabilities, such as brokered deposits, FHLB borrowings, and certificates of deposit over
$100,000 to fund long-term earning assets. Generally, the lower the ratio, the less risk exposure
there is for the bank, whereas higher ratios reflect a reliance on funding sources that may not be
available in times of financial stress or adverse changes in market conditions. As noted in
Figure 6, which follows, Alliance’s reliance on non-core/volatile liabilities dropped after the
April 2003 examination and was closer to its peer group average but then grew significantly
above its peer group average from March 2006 to June 2008. This pattern reflects the bank’s
increasing reliance on the use of brokered deposits and FHLB borrowings to provide liquidity.


                      Figure 6: Net Non-Core Funding Dependence

            60%
                                                                              50.22%
            50%

                                                    36.89%        34.98%
            40%
                                                                                 33.94%
                      34.00%
    Ratio




                                                                       24.46%
                                                                                              Alliance
            30%                  28.36%
                          19.79%       21.29%             22.27%                              Peer
            20%     15.54% 16.57%

            10%

            0%
                   Apr-03      Mar-04      Apr-05   Mar-06         May-07      Jun-08
                                          Examination Date

 Source: OIG review of ROEs for Alliance.



The April 2005 ROE reported that while the bank was capable of meeting its typical asset
funding needs, liquidity had become strained by a very large and potentially volatile deposit
relationship. Further, the bank had increased reliance on costlier funding sources, such as



                                                          17
      brokered deposits and FHLB borrowings. As a result, the bank’s liquidity rating was
      downgraded from 2 at the prior examination to 3 in 2005.

      The 2006 examination also resulted in a 3 liquidity rating as the bank’s reliance on volatile
      liabilities had continued to increase and exceeded its policy limit of 20 percent. Net non-core
      funding dependence as of December 31, 2005 was 36.9 percent, representing a 30-percent
      increase since the April 2005 examination. Brokered deposits had increased 210 percent, and the
      BOD had approved further increases. Examiners recommended that the BOD and management
      reassess the bank’s targeted liquidity ratios.

      In 2007, examiners continued to report that wholesale funding was used extensively; however,
      the bank’s overall satisfactory condition and earnings performance lent some support for the
      heavy use of wholesale funding, and the liquidity rating was raised to 2. Examiners
      recommended that a formal liquidity contingency plan be established to identify specific steps to
      be taken in the event of a liquidity crisis and that Alliance identify specific scenarios such as
      legal limits triggered by PCA standards and reputation risk.

      By the June 2008 examination, Alliance’s liquidity levels were rated critically deficient.
      Examiners reported that management did not have a contingency plan in place and, because the
      bank’s PCA category had fallen to Adequately Capitalized as of its June 30, 2008 Call Report,
      the bank was prohibited from accepting, renewing, or rolling over brokered deposits without a
      waiver from the FDIC.


Implementation of PCA

      The purpose of PCA is to resolve problems of insured depository institutions at the least possible
      long-term cost to the DIF. PCA establishes a system of restrictions and mandatory supervisory
      actions that are to be triggered by an institution’s capital levels. Part 325 of the FDIC’s Rules
      and Regulations implements PCA requirements by establishing a framework for taking prompt
      corrective action against insured nonmember banks that are not adequately capitalized.

      The FDIC evaluated Alliance’s capital position and assigned a capital component rating of 2
      from the 2001 to the 2007 examinations, indicating a satisfactory capital level relative to the
      bank’s risk profile. The bank’s Call Report as of June 30, 2008, indicated that the bank’s capital
      ratios had significantly declined and, based on these ratios, Alliance’s capital category became
      Adequately Capitalized.

      PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s financial
      health. In addition, the use of PCA Directives can depend on the accuracy of capital ratios in a
      financial institution’s Call Reports. Alliance’s reported capital ratios remained in the Well
      Capitalized to Adequately Capitalized range after its operations had begun to deteriorate. During
      the June 2008 examination, examiners considered the ALLL to be underfunded by $3.8 million,
      which overstated capital and earnings and underreported the deterioration of the loan portfolio.




                                                        18
      Subsequently, the 2008 examination downgraded the bank’s capital rating to a 4, indicating a
      deficient level of capital that could threaten the viability of the institution and require the bank to
      obtain financial support from shareholders or other external sources. Further, the joint
      FDIC/DFI October 2008 C&D contained several capital-related provisions. These provisions
      required the bank to:

         •   Formulate and implement a capital plan
         •   Raise $30 million in capital within 60 days
         •   Bring Tier 1 Capital to 10 percent of total assets
         •   Submit a status report on requirement to raise capital

      However, Alliance was unable to raise additional capital, and the bank’s capital position
      continued to decline. The FDIC issued a PCA Directive to Alliance, dated December 1, 2008,
      notifying the bank that based on amended ratios filed on November 25, 2008, it fell within the
      Undercapitalized Capitalized category for PCA, and the FDIC asked Alliance to submit a capital
      plan. Subsequently, based on its December 31, 2008 Call Report submitted on February 4, 2009,
      Alliance became Critically Undercapitalized and was closed on February 6, 2009.


Conclusion

      Based on our conclusion that Alliance’s failure and material loss were due to the bank’s rapid
      growth in ADC lending without adequate risk management controls and sound credit
      administration practices, the FDIC should have taken additional supervisory actions, particularly
      during the 2007 examination, before which Interagency Guidance had highlighted the risks of
      CRE concentrations. When similar circumstances occurred in 2000, the FDIC downgraded the
      bank and signed an MOU to address these concerns. Although the concentrations in ADC
      lending after 2004, as a percentage of Total Risk-Based Capital, did not become as severe as
      those reported in 2000, they were significantly higher in dollar terms, above peer, and along with
      the bank’s reliance on brokered deposits, warranted greater attention.

      As mentioned previously, Interagency Guidance on CRE, issued in December 2006, states in
      general, that an institution may be identified for further supervisory analysis of the level and
      nature of risk if it has experienced rapid growth in CRE lending, has notable exposure to a
      specific type of CRE, or is approaching or exceeds total reported loans for CRE of 300 percent or
      ADC loans of 100 percent or more of the institution’s total capital. During the 2007
      examination, Alliance’s CRE and ADC concentrations exceeded the criteria established by the
      guidance. In addition, the 2007 ROE reported that Alliance’s loan classifications had increased
      by 37 percent from the prior examination. While examiners appropriately recommended that the
      bank’s loan policy be revised to include a contingency plan to reduce or mitigate concentrations
      in the event of adverse market conditions, examiners did not downgrade the institution or pursue
      an MOU.

      However, we found that examinations of Alliance from 2004 to 2008 were conducted in a timely
      and complete manner and that examiners clearly notified Alliance management of the risks the
      bank’s high concentrations in ADC lending posed to the institution. Furthermore, examiners


                                                          19
    made recommendations to strengthen the bank’s credit administration practices and limit its uses
    of wholesale funding during each of these examinations. As a result of off-site monitoring and
    communication between the FDIC and DFI, the agencies worked together in an effective manner
    during 2008 to aggressively downgrade Alliance; notify the bank of its declining PCA
    categories; and implement a C&D to address the bank’s critical asset quality, liquidity, and
    capital deficiencies. Although the loss to the DIF represented 17 percent of the bank’s assets, the
    actions of regulators during 2008 were effectively conducted to prevent further losses resulting
    from the bank’s lending practices and accelerated by the decline in the Southern California
    economy.


CORPORATION COMMENTS

    On August 27, 2009, the Director, DSC, provided a written response to the draft report. DSC’s
    response is provided in its entirety as Appendix 3 of this report. In its response, DSC
    summarized the OIG’s conclusions regarding the causes of Alliance’s failure and the resulting
    material loss to the DIF and DSC’s supervisory activities related to Alliance. DSC also
    acknowledged the OIG position that the risk factors identified in 2007 could have led to earlier
    action.




                                                      20
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, the Inspector General of the appropriate federal banking
      agency shall prepare a report to that agency reviewing the agency’s supervision of the
      institution. The FDI Act requires that the report be completed within 6 months after it
      becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from March 2009 to July 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it may not have been feasible to address certain aspects of the
      standards, as discussed on the next page.


Scope and Methodology

      The scope of this audit included an analysis of Alliance’s operations from January 1,
      2004 until its failure on February 6, 2009. Our review also entailed an evaluation of the
      regulatory supervision of the institution over the same period. In addition, we reviewed
      ROEs issued from 2000 to 2008 to obtain a perspective on Alliance’s examination
      history.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination reports and available supporting work papers prepared by
                 the FDIC and DFI examiners from 2004 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s San Francisco Regional
                       Office (SFRO) and Los Angeles West Field Office.

                   •   Reports prepared by Division of Resolutions and Receiverships (DRR) and
                       DSC relating to the bank’s closure.

                   •   Alliance’s financial audit work papers from the offices of McGladrey &
                       Pullen, LLP, Irvine, California.




                                                       21
                                                                                   APPENDIX 1


                 •   Bank records maintained by DRR in Dallas for information that would
                     provide insight into the bank’s failure.

                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in the FDIC’s SFRO.

                 •   DSC examiners from the Los Angeles West Field Office who participated in
                     examinations or reviews of examinations of Alliance.

                 •   DRR contractors at the Alliance Receivership Office in Pasadena, California.

                 •   DRR and Legal Division personnel at the Dallas Regional Office.

           •   Discussed with officials from the California DFI, Los Angeles, California, their
               coordination with the FDIC on joint examinations.

           •   Researched various federal banking laws and regulations.

      We performed the audit fieldwork at the FDIC’s Headquarters in Washington, D.C.,
      SFRO, and the DSC Los Angeles West Field Office.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of Alliance’s
      management controls pertaining to its operations as discussed in the finding section of
      this report.

      For purposes of the audit, we did not rely on computer-processed data to support our
      significant findings and conclusions. Our review centered on interviews, ROEs,
      correspondence, and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.




                                                     22
                                                                            APPENDIX 1

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain other aspects of the FDI Act. The results of our tests were
discussed, where appropriate, in the report. Additionally, we assessed the risk of fraud
and abuse related to our objectives in the course of evaluating audit evidence.




                                              23
                                                                                           APPENDIX 2
                                   GLOSSARY OF TERMS


Term                 Definition
Adversely            Assets subject to criticism and/or comment in an examination report. Adversely
Classified Assets    classified assets are allocated on the basis of risk (lowest to highest) to three categories:
                     •    substandard,
                     •    doubtful, and
                     •    loss.

Allowance for Loan   Federally insured depository institutions must maintain an ALLL level that is adequate
and Lease Losses     to absorb the estimated credit losses associated with the loan and lease portfolio
(ALLL)               (including all binding commitments to lend). To the extent not provided for in a
                     separate liability account, the ALLL should also be sufficient to absorb estimated credit
                     losses associated with off-balance sheet credit instruments such as standby letters of
                     credit.

Cease and Desist     A formal enforcement action issued by a financial institution regulator to a bank or
Order (C&D)          affiliated party to stop an unsafe or unsound practice or a violation of laws and
                     regulations. A C&D may be terminated when the bank’s condition has significantly
                     improved and the action is no longer needed or the bank has materially complied with
                     its terms.

Concentration        A concentration is a significantly large volume of economically related assets that an
                     institution has advanced or committed to one person, entity, or affiliated group. These
                     assets may, in the aggregate, present a substantial risk to the safety and soundness of
                     the institution. A concentrations schedule is one of the pages that may be included in
                     the ROE. As a general rule, concentrations are listed by category according to their
                     aggregate total and are reflected as a percentage of Tier 1 Capital. Concentrations
                     representing 100 percent or more of Tier 1 Capital should include concentrations by:
                     industry, product line, type of collateral and short-term obligations of one financial
                     institution or affiliate group.

Prompt Corrective    The purpose of PCA is to resolve problems of insured depository institutions at the
Action (PCA)         least possible long-term cost to the DIF. Part 325, subpart B, of the FDIC Rules and
                     Regulations, 12 Code of Federal Regulations section 325.101, et. seq., implements
                     section 38, Prompt Corrective Action, of the FDI Act, 12 U.S.C. section 1831o, by
                     establishing a framework for taking prompt supervisory actions against insured
                     nonmember banks that are less than adequately capitalized. The following terms are
                     used to describe capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                     (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                     Undercapitalized.

                     A PCA Directive is a formal enforcement action seeking corrective action or
                     compliance with the PCA statute with respect to an institution that falls within any of
                     the three categories of undercapitalized institutions.

Uniform Bank         The UBPR is an individual analysis of financial institution financial data and ratios that
Performance          includes extensive comparisons to peer group performance. The report is produced by
Report (UBPR)        the Federal Financial Institutions Examination Council for the use of banking
                     supervisors, bankers, and the general public and is produced quarterly from Call Report
                     data submitted by banks.




                                                     24
                                                                                                          APPENDIX 3

                                    CORPORATION COMMENTS
..         iud 'U                    1 .ui                               .,idi!:



     FDII
     Federal Deposit Insurance Corporation
     550 17th Street NW. Washington. D.C. 2029-9990                 Division of Supervision and Consumer Protecion




                                                                   August 27. 2009




     TO: Russell A. Rau
                        Assistant Inspector General for Audits

     FROM: Sandra L. Thorapso\l
                        Director

     SUBJECT: Draft Audit Report Entitled, Material Loss Review of Alliance Bank, Culver City,
                California (Assignment No. 2009-024)


     Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
     Insurance Corporation's Offce ofInspector General (GIG) conducted a material loss review of
     Alliance Ban (Alliance), which failed on February 6, 2009. This memorandum is the response
     of the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Audit Report
     (Report) received on August 6, 2009.

     Alliance failed due to management's aggressive pursuit of asset growth concentrated in
     acquisition, development, and construction (ADC) lending without the implementation of
     adequate risk management controls and sound credit administration practices. The Report
     concludes that the FDIC and the State of California Department of Financial Institutions
     conducted timely examinations of Alliance and advised management of     the risks posed by these
     high concentrations. The Report further specifies that examiners made recommendations to
     strengthen Alliance's risk management controls and credit administration practices and limit the
     institution's use of wholesale funding.

     The Report notes that DSC appropriately implemented Prompt Corrective Action regulations
     restricting Alliance from brokered deposits, and that DSC took effective actions in 2008 to
     downgrade Alliance and implement a Cease and Desist Order. The OIG concludes these actions
     proved to be a significant factor in limiting further losses to the Deposit Insurance Fund from the
     failure of Alliance. The OIG's note that the risk factors identified in 2007 could have led to
     earlier action is acknowledged.

      Thank you for the opportunity to review and comment on the Report.




                                                          25
                                                                    APPENDIX 4
                  ACRONYMS IN THE REPORT


 Acronym                                  Definition
ADC        Acquisition, Development, and Construction
ALLL       Allowance for Loan and Lease Losses
BOD        Board of Directors
C&D        Cease & Desist Order
CAMELS     Capital adequacy, Asset quality, Management practices, Earnings
           performance, Liquidity position, and Sensitivity to market risk
CLP        Contingency Liquidity Plan
CRE        Commercial Real Estate
DFI        Department of Financial Institutions
DIF        Deposit Insurance Fund
DIR        Division of Insurance and Research
DRR        Division of Resolutions and Receiverships
DSC        Division of Supervision and Consumer Protection
FDI        Federal Deposit Insurance
FHLB       Federal Home Loan Bank
OIG        Office of Inspector General
PCA        Prompt Corrective Action
ROE        Report of Examination
SFRO       San Francisco Regional Office
UBPR       Uniform Bank Performance Report
UFIRS      Uniform Financial Institutions Rating System
U.S.C.     United States Code




                                   26
